          Human Capital Management:
Lack of Priority Has Slowed OIG-Recommended
Actions to Improve Human Capital Management,
 Training, and Employee Development Practices


              Report No. E-11-04


                   July 8, 2011




             Evaluation Report Issued By



    NATIONAL RAILROAD PASSENGER CORPORATION
          OFFICE OF INSPECTOR GENERAL
                 10 G STREET, N.E.
              WASHINGTON, D.C. 20002
NATIONAL RAILROAD
PASSENGER CORPOARATION
                                            The Inspector General



 Memorandum

To:          Joseph H. Boardman
             President and CEO


From:        Ted Alves


Date:        July 8, 2011


Subject:     Human Capital Management: Lack of Priority Has Slowed OIG-Recommended
             Actions to Improve Human Capital Management, Training, and Employee
             Development Practices (Report E-11-04)



This report presents the results of our follow-up review of recent OIG evaluations of
human capital management (E-09-03, May 15, 2009) and training and employee
development (E-09-06, October 26, 2009). Knowing of your concern with improving
human capital management, training, and employee development practices at Amtrak,
we initiated this review to determine Amtrak’s progress in implementing the
recommendations in those evaluations and to assess the causes for any delays.



RESULTS IN BRIEF

Two years after the OIG issued 24 recommendations designed to improve Amtrak’s
human capital management practices and 19 months after the OIG issued 27
recommendations to improve training and employee development practices at Amtrak,
the Human Resources, Labor Administration and Diversity Initiatives (HR, LA & DI)
Department has made only limited progress in implementing the recommendations. In
addition, in several cases, the planned actions that HR, LA & DI identified to correct
                                                                                                2
                               Amtrak Office of Inspector General
                                 Human Capital Management:
             Lack of Priority Has Slowed OIG-Recommended Actions to Improve
          Human Capital Management, Training, and Employee Development Practices
                                Report No. E-11-04, July 8, 2011

significant deficiencies are not responsive to the recommendations and would not
address the underlying problems; in some cases, progress was exaggerated. As a result,
Amtrak continues to suffer from outdated human capital management, training, and
employee development processes that hinder its ability to perform effectively. Further,
Amtrak is increasingly at risk of encountering skills shortages as highly experienced,
long-time employees retire.

HR has attributed this lack of progress to several causes, most of which we do not
consider valid:
      a new Federal Railroad Administration (FRA)-proposed regulation governing
      training;
      the lack of funding for Employee Information Management Phase 4, and
      the High Performance Organization (HPO) initiative.

In reality, this lack of appreciable progress has occurred because implementing these
recommendations has not been a priority for Amtrak. This is demonstrated by the
absence of sustained, focused attention on implementing these recommended actions,
and by the limited resources applied. In fact, the former Vice President for HR, LA, and
DI acknowledged that implementing these recommendations had not been a priority
for Amtrak.1

To address this situation, we are recommending that the President and CEO (1) make
improved human capital management, training, and employee development a clearly
articulated priority for the soon-to-be-hired Chief Human Capital Officer, as well as for
all executives and managers at Amtrak; and (2) direct the Chief Human Capital Officer
to revise the Human Capital Action Plan to include actions that are responsive to the
recommendations and with reasonable implementation time frames.

In commenting on a draft of this report, in a meeting with the Inspector General and in
Amtrak’s written response (see Appendix I), Amtrak’s President and CEO agreed with
our recommendations and committed to tasking the new Chief Human Capital Officer
with developing an action plan to address our findings and recommendations within 60
days of his/her arrival. We support this approach.



1   The former Vice President for HR, LA, and DI retired from Amtrak effective April 1, 2011.
                                                                                         3
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

BACKGROUND
In late 2007, we began an evaluation of Amtrak’s human capital management; this was
subsequently divided into two separate evaluations, one addressing the broader subject
of human capital management and the other focusing more specifically on training and
employee development. Both were comprehensive efforts that compared Amtrak’s
practices against leading industry practices and incorporated benchmarks to other
companies, including other large railroads. In 2009, we issued separate reports
containing the results of these evaluations:

Our May 2009 report on human capital management (Report E-09-03) contained the
following six findings:

   Amtrak does not conduct comprehensive strategic workforce planning to ensure it
   has a workforce with the requisite knowledge and skills to meet the company’s
   future needs.

   No clear, comprehensive “total compensation” philosophy and strategy exist to
   ensure pay practices are applied consistently and effectively, and aligned to support
   Amtrak’s strategic plans.

   Amtrak’s current recruitment process is relatively slow in filling vacant positions
   with high-performing individuals who meet the company’s business requirements.

   Amtrak does not have a coordinated retention strategy.

   Amtrak currently does not have the information technology tools needed to perform
   its HR functions effectively and efficiently.

   Amtrak is not optimally organized to support strategic management of human
   capital.

The report included 24 recommendations associated with these findings. In its response,
dated June 4, 2009, Amtrak agreed with 22 of the report’s recommendations. With
regard to our two recommendations for a new organizational structure to support
human capital management, Amtrak agreed that organizational changes were
warranted, but disagreed with combining the Labor Relations (LR) Department with
the Human Resources and Diversity Initiatives (HR & DI) Department, and placing
                                                                                                       4
                               Amtrak Office of Inspector General
                                 Human Capital Management:
             Lack of Priority Has Slowed OIG-Recommended Actions to Improve
          Human Capital Management, Training, and Employee Development Practices
                                Report No. E-11-04, July 8, 2011

them under a single Chief Human Capital Officer. In August 2010 this decision was
reversed, and the LR Department was combined with HR & DI to form the Human
Resources, Labor Administration, and Diversity Initiatives Department.



Our October 2009 report on training and employee development (Report E-09-06)
contained 16 findings covering two major areas—employee training and management
employee career development.

      The major employee training finding was that Amtrak has no comprehensive,
      corporate-wide strategy linking employee development and training with Amtrak’s
      strategic goals and objectives. Other findings addressed Amtrak’s new-hire-
      orientation program, job-specific initial training, training and certification of
      instructors, and the overall efficiency of training delivery.

      The major management employee career development finding was that Amtrak
      likewise lacks a comprehensive, integrated, corporate-wide career development
      strategy for management (non-agreement2) employees. Other findings addressed
      screening of management candidates, the management associate program,
      educational standards, documented career paths and job families, cross-
      departmental competencies, and leadership training.

Amtrak agreed with all 27 of the report’s recommendations.


Amtrak’s Human Capital Action Plan. On August 30, 2010, Amtrak provided us with
its Human Capital Action Plan (HCAP) outlining the actions planned and accomplished
in addressing these 51 recommendations. The plan was updated in December 2010 and
again in March and April 2011.


SCOPE AND METHODOLOGY
To evaluate Amtrak’s progress in implementing these recommendations, we started by
conducting a detailed review of each of the 27 recommendations from the training and

2   “Non-agreement” employees generally are those not covered by collectively-bargained union contracts.
                                                                                       5
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

employee development report, using Amtrak’s HCAP as a guide. For each
recommendation we interviewed the Amtrak senior managers identified as the
responsible party in the action plan. We also requested and reviewed any documents
and other evidence of progress either mentioned during our interviews or identified in
the action plan as being associated with the recommendations. We then performed a
similar review of the 24 recommendations from the human capital management report.



FINDINGS

Amtrak Has Made Only Limited Progress in Implementing the
Recommendations

The results from the detailed review of the 27 recommendations contained in the
training and employee development report follow:

   2 (7 percent) were complete or substantially complete;
   4 (15 percent) had some progress; and
   21 (78 percent) had little or no progress, including the key recommendations that
   Amtrak issue
   o a corporate-wide strategy for training and employee development, providing
     guidance to the corporation on the linkage of training and employee
     development to the achievement of Amtrak’s strategic goals and objectives; and
   o a corporate-wide strategy for developing management employees to assume
     future leadership roles within the company.

The results from the detailed review of the 24 recommendations contained in the
human capital management report were similar:

   0 were complete or substantially complete;
   10 (42 percent) had some progress; and
   14 (58 percent) had little or no progress, including the key recommendations that
   Amtrak
   o involve top management, employees, and stakeholders in developing,
     communicating, and implementing a strategic workforce plan to enable Amtrak
                                                                                                    6
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

      to identify, develop, and sustain the workforce skills needed to successfully
      accomplish Amtrak’s business strategy while balancing career and lifestyle goals
      of its employees;
    o create an overall human capital recruitment strategy, involving all stakeholders,
      that identifies Amtrak’s critical positions and the techniques to be used to fill
      them as quickly as possible; and
    o develop a corporate retention strategy that aligns with and supports the overall
      human capital strategic plan.

Overall, for the two reports, only two recommendations have been fully implemented.
For over two-thirds of the recommendations, little to no progress has been made in the
19–24 months since the two reports were issued. Appendix II includes a copy of
Amtrak’s latest action plan (April 29, 2011), annotated with two additional columns
reflecting the results of our review.



The Action Plan Provided Unconvincing Reasons for Lack of
Progress

During interviews and in numerous places in the action plan, three items were cited
repeatedly as significant obstacles to further progress in implementing the
recommendations:

1. the new Federal Railroad Administration (FRA)-proposed regulation governing
   training,
2. the lack of funding for Employee Information Management (EIM)3 Phase 4, and
3. the High-Performance Organization (HPO)4 initiative.

We do not see any of these items as valid obstacles to moving forward in implementing
the recommendations.


3 Employee Information Management (EIM) is a multi-phased initiative to improve HR systems and
processes through the implementation of business software.
4 The High-Performance Organization (HPO) initiative is an approach to organizational change designed

to build a high-performance organization. This approach was developed by the Commonwealth Center
for High-Performance Organizations, Inc.
                                                                                       7
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

New FRA-proposed regulation. The Rail Safety Improvement Act of 2008 mandated that
FRA develop new rules to ensure that safety-related railroad employees (as newly-
defined) are trained and qualified on any federal railroad safety laws, regulations, and
orders with which the employees are required to comply. To comply with this law, FRA
formed a Rail Safety Advisory Committee. This FRA Working Group consisted of
approximately 70 people representing rail labor, rail management, and rail contractors.
This group reached consensus on the rulemaking during a teleconference on
November 23, 2010.

The summary presentation developed and reported by FRA indicates that most of the
proposed rulemaking would not affect the majority of Amtrak’s current training
programs, nor would the changes limit Amtrak’s ability to implement our
recommendations. Therefore, listing the FRA rulemaking as a reason for not moving
forward in implementing the recommendations is unjustified. At most, the new rules
could have caused some minor modifications to polices. This item was cited as a reason
for delay in over a third of all of the training recommendations.

Lack of Funding for EIM Phase 4. EIM Phase 3 was completed in May 2010. According
to interviews with Amtrak’s Information Technology (IT) Department, all EIM
functions intended to support training and employee development were included in
EIM Phase 3.

The need for a fully loaded and functioning qualifications catalog in EIM is cited
numerous times in HR’s updated progress report as an obstacle to implementing our
training and employee development recommendations. This function is available;
however, not all of the data needed for the system to be used as envisioned have been
entered. Efforts to systematically upload HR data could generate increased costs, yet we
were told that cost estimates to upload the data were never discussed with IT by HR,
and should be separate from future funding issues associated with EIM Phase 4. Any
reference to EIM Phase 4 funding issues as an obstacle to implementing our training
and employee development recommendations is, therefore, misleading.

HPO Initiative. Amtrak’s president launched an initiative in July 2010 to learn about
and adopt the High-Performance Organization management approach at Amtrak.
Although this initiative may result in some organizational changes and an emphasis
placed in new areas, the vast majority of the training and employee development needs
                                                                                                            8
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

at Amtrak will not change. This initiative should not stop Amtrak from moving forward
on implementing our recommendations. In fact, implementing these recommendations
is essential to establishing a foundation for the High-Performance Organization to
succeed.



HCAP Actions Are Not Consistently Responsive to the Intent of the
Recommendations

Despite ultimately agreeing with all of the recommendations in our two reports and
outlining actions aimed at implementing them, some of these actions are not responsive
to the intent of the recommendations. For example:

Workforce Planning. Recommendation 1A from the human capital management report
states that Amtrak should “involve top management, employees, and stakeholders in
developing, communicating, and implementing a strategic workforce plan to enable
Amtrak to identify, develop, and sustain the workforce skills needed. . . .” This
recommendation was based on the results of a 2003 study by the (now) U. S.
Government Accountability Office (GAO) that identified five key principles for effective
workforce planning. As discussed in our report, GAO found that

        efforts that address key organizational issues, like strategic workforce planning,
        are most likely to succeed if, at their outset, organizations’ top program and
        [human capital] leaders set the overall direction, pace, tone, and goals of the effort,
        and involve employees and other stakeholders in establishing a communication
        strategy that creates shared expectations for the outcome of the process.5

Neither the actions discussed in the HCAP nor those that have been accomplished to
date directly address this recommendation. The actions that have been completed for
this recommendation are focused mainly on succession planning for senior employees
(Amtrak pay grade D2 and above), and the interaction has been between human
resources managers and the leadership of individual departments. Top leaders have not
set the overall direction and goals for this undertaking, nor has a strategy been
developed to communicate the expected outcome of strategic workforce planning.

5U.S. General Accounting Office, Human Capital: Key Principles for Effective Strategic Workforce Planning
(Washington, D.C.: GAO-04-39, December 11, 2003).
                                                                                        9
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011



Without a strong strategic workforce plan, Amtrak cannot be assured that it will have
the employee skills needed to attain its business goals, both now and in the future.
Unless top leaders demonstrate their involvement and support for workforce planning,
this effort will be unlikely to succeed.



Compensation Strategy. Recommendation 2A from the human capital management
report states that Amtrak should “implement a written, Board of Directors-approved,
comprehensive total compensation philosophy and strategy that addresses base pay,
premium pay, variable pay, benefits, and work-life flexibilities. This philosophy and
strategy must be linked to the company’s strategic human capital plan and address
agreement-covered employees as well as non-agreement covered [management]
employees.” Our report discussed the importance of a comprehensive total
compensation strategy in attracting, motivating, and retaining highly qualified
employees who are engaged and committed to the company’s success. A total
compensation strategy goes beyond pay alone to address benefits and work-life
flexibilities that are becoming increasingly important to workers.

The actions described in the action plan are focused almost exclusively on monetary
compensation for non-agreement employees. This addresses only part of a total
compensation strategy and focuses on only 15 percent of Amtrak’s workforce. While
actions to address non-agreement monetary compensation are commendable, this is but
one piece of what is needed, and should not be finalized without taking into
consideration the other elements of compensation and showing how the total
compensation strategy supports an overall human capital strategy.

Without a clear total compensation strategy that ties together all of the different
elements of compensation, Amtrak risks spending money in ways that are less than
optimally effective in attracting, motivating, and retaining the employees needed to
accomplish the company’s business and strategic objectives.



Organizational Structure. Recommendation 6A from the human capital management
report states that Amtrak should “combine the HR and LR departments to form one HC
[human capital] department. As part of this reorganization, combine and/or realign the
                                                                                      10
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

divisions and branches within the new department to improve communication,
accountability, collaboration, clarify job responsibilities, and provide a structure to
support HCM [human capital management].” Our report discussed several examples of
how a change in organizational structure could help improve communication,
accountability, and collaboration, and clarify responsibilities between the HR and LR
departments and within the HR department.

While Amtrak has combined the two departments into one on its organization chart
(and listed this recommendation as “complete” on the latest action plan), in truth,
beyond combining the departments under one executive, little has been done to merge
the activities of the two departments. The as-yet unmet intent of our recommendation
was to improve communication and interaction within the old HR department and
between the old HR and old LR departments. Much more could still be done in the
newly-joined department.



Company-wide Job Families. Recommendation 2D1 from the training and employee
development report states that the VP for HR&DI, in consultation with Amtrak’s
executive leadership, should “develop broad, company-wide job families and career
progression paths for all non-agreement positions.” Career progression paths both
identify the expected path for management progression and assure individual
managers that they are making proper career choices to increase their likelihood of
advancing within the organization. Job families are broader fields of positions linked by
similar endeavors or technical skills. Ideally, positions requiring similar attributes,
skills, or expertise should be managed as a “family,” with someone designated to
ensure that those in the family get the appropriate training and the required experiences
that will allow them to grow and succeed.

The most recent action plan (April 29, 2011) stated, under Actions Year to Date,
“Collaborated with IT and Engineering to develop career families. Ongoing
collaboration with other organizational groups. . . . A career path
planning/implementation approach will be presented to the Executive Committee in
February 2011.”
                                                                                                        11
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

At a follow-up meeting with the responsible high-level Amtrak manager on
February 23, 2011, a discussion of job families determined that the current approach
was to develop individual families within each Amtrak department, rather than
“company-wide.” When queried as to how this would meet the criteria of “broad
company-wide job families” contained in the recommendation, the reply was that it
would not; the Amtrak manager did not see how one could possibly establish company-
wide job families, despite the example discussed in the original report at another large
railroad.

The current plan, despite the professed agreement with our recommendation, will not
achieve the purpose of the recommendation. As a consequence, if Amtrak continues
along the path it is pursuing, it will not be able to ensure that it is “growing”
individuals with the proper skills and experience to be the future leaders of the
company. At best, the company will nurture future department leaders who have
experiences in only one department. This will further exacerbate Amtrak’s silo
mentality6—which is what the recommendation was intended to address.



Educational Standards for Non-agreement Employees. Recommendation 2E2 from the
training and employee development report states that the VP for HR&DI should
“ensure all new non-agreement hires or promotions possess the minimum educational
standard identified in the position description or that a waiver has been granted by the
president of Amtrak or his designated representative.” The purpose of this
recommendation was to increase the educational levels of managers to be on par with
those found in benchmarked organizations. The original report found that of the top 12
senior leaders in two of Amtrak’s operating departments, only one had a college degree.
At a benchmarked freight railroad, 8 of the 11 comparable senior leaders had college
degrees.

The action plan update of April 29, 2011, states: “This recommendation continues to be
an integral component of Amtrak’s standard operating practice as it relates to
recruitment and placement.” Yet Amtrak still posts jobs that contain educational
requirements and then adds the Amtrak standard suffix “or the equivalent combination

6A silo mentality is demonstrated by a lack of communication or awareness among departments in an
organization. The opposite of systems thinking, the name derives from the farm storage silo, in which
each silo is designated for a specific grain.
                                                                                              12
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

of education, training, and/or experience,” which essentially renders the educational
requirement moot. This wording was even included with the recent postings for both
the Vice President for Operations position and the Chief Human Capital Officer
position.

Consequently, as long as hiring managers can judge experience as equivalent to a
degree, anyone can meet the minimum educational requirements, and there is no need
to have a process to request a waiver from the company president. This was clearly not
the intent of the recommendation. As we commented in our previous report (E-09-06,
October 26, 2009),

      A college education is not the only tool in an individual manager’s toolkit; there
      are some people whose natural leadership abilities substantially offset their lack of
      a baccalaureate education, and many of them are in senior leadership positions at
      Amtrak. On an individual basis, this is good, and arguably there should always be
      positions for a very small percentage of individuals who are truly gifted in these
      areas. However, on an aggregate basis, a senior leadership lacking formal
      technical and/or business education is not an ideal situation for the successful
      operation of a complex, 21st-century transportation company.



Training Records. Recommendation 1F2 from the training and employee development
report states that the VP for HR&DI should “develop policies and procedures to ensure
that all training is being appropriately captured in HRIS (Human Resource Information
System) and that duplicate records are not continuing to be maintained.” This
recommendation was intended to address the observation that multiple records and
databases were being maintained in the field to track training. Although corporate
policy mandated that all training be documented in HRIS, according to managers in the
field, the corporate system was not responsive to their needs and they therefore wanted
to keep their own records. We saw this as inefficient and said that, once the new
Employee Information Management System was fully implemented, there should no
longer be the need for records to be maintained by field managers.

Again, the latest action plan lists this recommendation as “complete.” When we asked
for copies of the policies and procedures that had been developed to ensure that
duplicate records were not continuing to be maintained in the field, we were given the
                                                                                     13
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

policy that was in effect at the time we conducted our evaluation. Therefore, no new
policies or procedures had been developed to address our recommendation. Without
new corporate direction and action, managers will continue to keep duplicate records in
the field, which is not only inefficient but can compromise the accuracy and
completeness of the corporate database.




Some Progress Reported in the Action Plan was Misleading or
Embellished

Some of the actions identified in the action plan to demonstrate progress were found to
be misleading or embellished. For example:

Management Assessment Tool. Recommendation 2B from the training and employee
development report stated that the VP for HR&DI should “develop and implement an
appropriate management assessment tool for all applicants for non-agreement
positions.” This recommendation was based on current practices at benchmarked
railroads and was designed to ensure that those selected to fill Amtrak management
positions would possess the characteristics that would make them likely to succeed.

The most recent action plan stated, under Actions Year to Date, “currently assessing
available instruments that are consistent with the competencies defined. Finalizing the
report with applicable recommendations.” However, at a follow-up meeting on March
22, 2011, OIG staff interviewed the Amtrak manager listed as the Responsible Party and
requested information about the assessment and a copy of the draft report. In response,
we were told that the “team” that did the assessment consisted of the Responsible Party
alone and that the report and recommendations were provided verbally to the VP for
HR, LA & DI. Further, no written record existed of the assessment results or the
recommendations.



Cross-Departmental & Corporate Competencies. Recommendation 2F1 from the
training and employee development report stated that the VP for HR&DI should
“develop and implement a plan to expand cross-departmental experience within the
middle and senior management of the company.” A company-wide survey of Amtrak
                                                                                                   14
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

employees - conducted by Accenture7—found that Amtrak still has a silo mentality that
pervades all departments and constitutes a significant barrier to improvement.
Development of cross-functional experience is an important step in breaking down such
barriers.

The most recent action plan stated that “Management will establish a cross functional
team to explore the feasibility of establishing a cross functional program.” However,
during a follow-up interview on March 22, the Responsible Party advised that the
“cross-functional team” currently consisted of one person—the Responsible Party.
Linked to that same finding was recommendation 2F2, which stated that the VP for
HR&DI should “track and report progress towards achieving this cross-departmental
experience on a semiannual basis, at a minimum.”

The most recent action plan shows that “Development of a program pilot is underway.”
However, when we requested documentation of the pilot program, we were told that
“written documentation is not ready for review.”



New Employee Orientation. Recommendation 1A2 from the training and employee
development report stated that the VP for HR&DI should “track and report on a
quarterly basis the number of new hires that have not attended the New Employee
Orientation (NEO) workshop, or equivalent, within 30 days of hire.”

The initial and subsequent Amtrak responses—including the most recent action plan —
indicated that “Management will generate monthly SAP8 reports that define all new
hires for the quarter who have not attended NEO workshop. . . . The first reports will be
forwarded to department heads . . . on July 1, 2010.” The most recent action plan lists
this recommendation as “completed.”

OIG staff requested copies of any previously-generated monthly or quarterly reports of
new hires who have not attended NEO workshops. The only “report” provided was an
SAP-generated listing of all new hires from October 2010 through December 2010, with


7Strategic Asset Management Culture Value Analysis, Executive Summary, Accenture, February 2009.
8SAP (which stands for “Systems, Applications, and Products in Data Processing”) is a business
management software program in use at Amtrak.
                                                                                         15
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

their NEO attendance dates included. This listing had not been analyzed to determine
the number of new hires who had not attended the workshop within 30 days of hire.

When this list was analyzed by OIG staff it appeared that of 327 new hires, 110 had
never attended the NEO workshop and another 25 had not completed it within the
prescribed first 30 days. The fact that 41 percent of the new hires had not complied with
the basic recommendation and that anyone receiving this “report” would have to do his
or her own analysis of the data to understand that fact, makes the “completed” status
that was reported for this recommendation questionable at best.



Instructor Qualifications. Recommendation 1G1 from the training and employee
development report stated that the VP for HR&DI should “develop a policy that
establishes minimum qualifications and certifications required to be an instructor for
each course taught at Amtrak.” The most recent action plan states that this action is
“complete.” However, when we asked for a copy of the policy, we learned that one
does not exist.

Linked to the same finding, recommendation 1G2 states that the VP for HR&DI should
“develop a program to insure all Amtrak instructors achieve and remain in compliance
with the above policy.” The most recent action plan states that “Instructor qualifications
are included in the revised job descriptions for Employee Development instructors” and
shows the status of implementing the recommendation as “complete,” yet if the policy
does not exist, how can the program to insure instructors remain in compliance with the
policy be considered “complete”?



Amtrak Acknowledges that Implementing the Recommendations Has
Not Been a Priority

Given that it has been 19–24 months since we issued these two reports and their 51
recommendations, we strove to find out why so little has been done in implementing
the recommendations. At the end of our interview with the former Vice President for
HR, LA & DI, she candidly volunteered that this had not been “a priority” for Amtrak.
The lack of sustained, focused attention and the limited resources applied to
implementing the recommendations would seem to substantiate this.
                                                                                              16
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

CONCLUSIONS

Two years ago, in our human capital management report, we stated:

       Once the economy turns around, there is a real danger that Amtrak will lose
       skilled craftsmen and technical experts faster than it can replace them. In fact,
       over a quarter of Amtrak’s workforce will be eligible for retirement within the
       next 5 years. Investments in recruiting, developing, motivating, and retaining
       highly qualified employees with the skills that are critical to Amtrak’s current and
       future needs are required for Amtrak to maintain its position as the acknowledged
       leader in intercity passenger rail in the U.S.

To guide Amtrak management in where to focus its efforts and resources, we made a
total of 51 recommendations in our two reports. As we have shown, only limited
progress has been made toward implementing these recommendations. Unless
addressing these critical shortcomings becomes a priority, Amtrak will continue to
suffer from outdated human capital management, training, and employee development
practices that hinder its ability to perform effectively. In addition, Amtrak is
increasingly at risk of encountering skills shortages that will degrade and potentially
keep Amtrak from fully accomplishing its core mission of providing intercity passenger
rail service for the nation.



RECOMMENDATIONS

In order to ensure greater progress in implementing important human capital
management recommendations that were made 19–24 months ago, we recommend that
the Amtrak President and CEO

1.   make improved human capital management, training, and employee development
     a clearly articulated priority for the soon-to-be-hired Chief Human Capital Officer,
     as well as for all executives and managers at Amtrak; and
                                                                                             17
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

2.    direct the Chief Human Capital Officer to revise the Human Capital Action Plan to
      include actions that are responsive to the recommendations and with reasonable
      implementation time frames.




MANAGEMENT COMMENTS AND OIG ANALYSIS

Amtrak’s President and CEO met with the Inspector General on June 14, 2011, at which
time he agreed to our recommendations and laid out a plan under which the soon-to-
be-hired Chief Human Capital Officer would address the findings and
recommendations contained in this report. Amtrak’s written response to our draft
report (see Appendix I) elaborates on this plan as follows:

        Amtrak is aggressively seeking to fill the vacant Chief Human Capital Officer
        (CHCO) position. In fact, we are planning to have the selection presented to the
        Amtrak Board on July 21. Anticipating their approval, the incumbent should
        report by mid-August. One of the first deliverables that I will require of the new
        CHCO is to analyze the OIG Report . . . and develop an action plan for
        addressing the findings. I will provide to the OIG the action plan, with specific
        milestones, within 60 days of the CHCO reporting on board.

We support this approach.

We appreciate the courtesies and cooperation of Amtrak representatives during the
preparation of this report. If you or your staff have any questions, please contact Calvin
Evans, Assistant Inspector General, Inspections and Evaluations, at 202.906.4507
(Calvin.Evans@amtrakoig.gov).




cc:     Members, Amtrak Executive Committee
        Peggy Reid, Chief Corporate Liaison
        Jessica Scritchfield, Senior Director, Internal Controls/Audit
                                                                         18
                     Amtrak Office of Inspector General
                       Human Capital Management:
   Lack of Priority Has Slowed OIG-Recommended Actions to Improve
Human Capital Management, Training, and Employee Development Practices
                      Report No. E-11-04, July 8, 2011



                            Appendix I
   COMMENTS FROM AMTRAK’S PRESIDENT AND CEO
                                                                                                                                Amtrak Office of Inspector General                                                                                                                                                                                    19
                                                                                                                                 Report No. E-11-04, July 8, 2011
                                                                                                                    Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                              DATE TO BE                                                                                            OIG                        OIG
    CATEGORY                           RECOMMENDATION                                                                ACTION PLAN                                       RESPONSIBLE PARTY                                                 ACTIONS YEAR TO DATE
                                                                                                                                                                                            ACCOMPLISHED                                                                                          STATUS                    COMMENTS
SUCCESSION PLANNING
Succession       1A. Amtrak involve top management, employees and stake-           •	 Develop workforce demographic summaries for each key department.                 Sheila Davidson      3/1/2011       •	 Met with key executives from each department to review succession planning        Little        Although some analysis and
Planning         holders in developing, communicating and implementing a                                                                                                                                      process and workforce demographic data.                                           Progress      succession planning for senior
                 strategic workforce plan to enable Amtrak to identify, develop    •	 Conduct succession planning sessions with key executives within each orga-                                                                                                                                              non-agreement employees has been
                 and sustain the workforce skills needed to successfully ac-          nizational group to define required workforce skills and provide demographic                                         •	 Developed and implemented a database to capture key talent profiles and                         accomplished, there has been little
                 complish Amtrak’s business strategy while balancing career           summaries.                                                                                                              competency requirements.                                                                        progress in addressing the intent of
                 and lifestyle goals of its employees.                                                                                                                                                                                                                                                        this recommendation, which was to
                                                                                   •	 Collaborate with key executives to define department function and work                                               •	 Collaborated with key executives to document skill inventory of current D2/E                    engage top management, employees
                                                                                      priorities, position descriptions, review position competencies to determine                                            Band employees.                                                                                 and stakeholders in developing,
                                                                                      workforce gaps and skill set deficiencies.                                                                                                                                                                              communicating and implementing a
                                                                                                                                                                                                           •	 Defined competencies for D2 and E band positions and developed position                         corporate-wide strategic workforce
                                                                                   •	 Develop and implement an assessment tool designed to conduct skill inven-                                               descriptions.                                                                                   plan. Efforts to date have been focused
                                                                                      tory of D and E band positions, and define corresponding skill gaps.                                                                                                                                                    at the department level.
                                                                                                                                                                                                           •	 With the implementation of Employee Information Management (EIM) Phase III
                                                                                   •	 Develop and implement a process to integrate training, education and career                                             and the start-up of the HR Service Delivery, resources are in place to address
                                                                                      development into our business practice to enhance workforce skills and close                                            workforce planning strategies and begin implementation of EIM Phase IV
                                                                                      competency gaps.                                                                                                        (contingent upon available funding)

                                                                                   •	 Design and issue customized departmental reports that summarize workforce                                            •	 Produced monthly headcount reports to provide workforce trends and
                                                                                      analysis, key talent profiles, potential skill gaps, and recommended actions.                                           forecasts.

                                                                                   •	 Create a competency database within SAP to capture and monitor skills                                                •	 Developed five year age-eligible retirement projections by organizational units
                                                                                      needed. This action is contingent upon implementation of Phase IV EIM.                                                  for agreement and non-agreement positions to forecast needs.

                                                                                                                                                                                                           •	 Performed data analysis to assess staffing vulnerabilities and hiring projec-
                                                                                                                                                                                                              tions.
Skills and       1B. Amtrak start a corporate-wide effort to identify (a)          •	 Obtain definition of the corporate vision from the executive leadership group.   Lorraine Green       TBD*           *The Amtrak President and CEO has created an executive leadership team               Little        The effort to date has focused on
Competency       the current and future missions of the company, (b) the                                                                                                                                   to focus on defining the organizational vision for the company. Meetings are         Progress      position descriptions and succession
Inventory        critical skills and competencies needed to support these          •	 Based on the articulated vision and corresponding goals, work with the                                               conducted every other Tuesday with the goal of defining elements of a high per-                    planning for the senior leadership
                 missions, and (c) the gaps at Amtrak in the critical skills and      executive leadership to define competencies required to support the vision                                           forming organization (HPO) and the corresponding mission and organizational                        (top 2%) of the organization. Beyond
                 competencies that need to be addressed to achieve current            and goals.                                                                                                           support requirements. Additionally, leadership training has been conducted in                      that, little has been done to identify
                 and future programmatic goals.                                                                                                                                                            support of this effort to assist in defining HPO requirements.                                     the critical skills and competencies
                                                                                   •	 Simultaneously, continue identification of skill and competencies required to Sheila Davidson;                                                                                                                          needed to support the current and
                                                                                      support current strategic imperatives of: Safer; Greener; Healthier; Improved Stephanie Pavlakis      Ongoing        •	 Collaborated with department senior staff to develop position descriptions                      future missions of the company and
                                                                                      Financial Performance; Improved Customer Service; and, Meet national needs.                                             including competencies for positions D2 and above.                                              the projected gaps in these critical
                                                                                      See 1A.                                                                                                                                                                                                                 skills and competencies that need to
                                                                                                                                                                                                           • 	Developed and implemented a talent inventory process to capture key com-                        be addressed for Amtrak to achieve its
                                                                                   •	 Expand internal leadership training program to incorporate developmental                                                petencies by organization groups to assist in identifying successors. Began                     current and future strategic goals.
                                                                                      strategies to emphasize identified competencies.                                                                        business process design of the SAP Qualifications catalog that will detail
                                                                                                                                                                                                              required job competencies.
                                                                                   •	 Collaborate with departments to develop a job rotation system to cross-train
                                                                                      employees, thereby creating a structure for staff to gain the competencies for                                       • 	Began development of individual department reports which summarize suc-
                                                                                      redeployment in response to workload fluctuation and career advancement in                                              cession planning feedback provided during one on one reviews.
                                                                                      support of succession planning.
Workforce Gaps   1C. Amtrak develop the workforce planning strategies to           See 1A and 1B.                                                                      Sheila Davidson;     6/1/2011       •	 “Worked with individual department heads to perform key talent inventories        No Progress   Until the gaps in critical skills and
                 address its workforce gaps.                                                                                                                           Michael Ramirez                        and began development of the data base to capture and maintain applicable                       competencies are identified, strate-
                                                                                   •	 To close competency gaps, engage senior leadership to champion high              Stephanie Pavlakis                     data.”                                                                                          gies to address the gaps cannot be
                                                                                      professional standards (education, qualifications, performance) in hiring and                                                                                                                                           developed.
                                                                                      promotions.
Workforce        1D. Amtrak build the capability needed to support its             See 1B, 1C.                                                                         Sheila Davidson;     12/30/2011     See 1A, 1B, 1C.                                                                      No Progress   Until the workforce strategies are
Strategies       workforce strategies.                                                                                                                                 Stephanie Pavlakis                                                                                                                     developed, the capabilities to support
                                                                                   • 	Collaborate with EIM and SAM project teams to define key performance             Paula Porter                                                                                                                           the strategies cannot be built.
                                                                                      indicators and talent management reports to track workforce performance.
HC Goals         1E. Amtrak establish a process to monitor and evaluate its        See 1A, 1B, 1C, 1D.                                                                 Sheila Davidson;     12/30/2011     See 1A, 1B, 1C.                                                                      Little        Although some metrics have been
                 progress towards achieving its HC goals and achieving its         • 	Define and validate KPI’s (Key Performance Indicators). KPI reports will include Paula Porter                                                                                                             Progress      identified, HC goals and a process
                 programmatic results.                                                assessment of attrition rates; vacancy rates; performance management                                                 • 	Currently working with SAM project team to define KPI’s and identify potential                  to monitor and evaluate progress to
                                                                                      program measurements; compensation trends; promotion rates; transfer                                                    reports from the SAP system.                                                                    achieving the goals have not been
                                                                                      rates; and rate of participation in training programs.                                                                                                                                                                  developed.
                                                                                                                            Amtrak Office of Inspector General                                                                                                                                                                              20
                                                                                                                             Report No. E-11-04, July 8, 2011
                                                                                                                Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                        DATE TO BE                                                                                           OIG                        OIG
   CATEGORY                           RECOMMENDATION                                                               ACTION PLAN                                    RESPONSIBLE PARTY                                               ACTIONS YEAR TO DATE
                                                                                                                                                                                      ACCOMPLISHED                                                                                         STATUS                    COMMENTS
COMPENSATION
Compensation   2A. Amtrak implement a written, board of Directors’ ap-          • 	Conduct comprehensive internal and market compensation analysis. (95%          L. Green            Revised Date   • 	Completed a comprehensive report detailing compensation strategies for     Some                Considerable thought and effort has
               proved, comprehensive total compensation philosophy and             complete)                                                                                          9/30/2012         non- agreement employees and presented the recommendations to the Amtrak Progress              been expended developing a com-
               strategy that addresses bas pay, premium pay, variable                                                                                                                                   Board of Directors on June 18, 2009. The report included funding estimates                     prehensive monetary compensation
               pay, benefits and work-life flexibilities. This philosophy and   • 	Develop compensation strategy recommendation based upon extensive                                                    and three key strategies: market pay, variable pay, and geographic pay.                        strategy for non-agreement employees;
               strategy must be linked to the company’s strategic HC plan          analysis performed. (Will be completed in FY11).                                                                                                                                                                    however, the Board has not approved
               and address agreement covered employees as well as non-                                                                                                                               •	 March 2010 Amtrak Board of Directors approved the implementation of Geo                        the strategy presented. In addition, the
               agreement covered.                                               • 	Present written findings and recommendations to the Amtrak Board of Direc-                                           Pay. Funding source was established and Geo pay was implemented July                           effort to date has not addressed agree-
                                                                                   tors.                                                                                                                2010.                                                                                          ment employees (85% of the company)
                                                                                                                                                                                                                                                                                                       nor non-monetary compensation. The
                                                                                •	 Obtain Amtrak Board Approval of comprehensive compensation strategy.                                              •	 Performed additional market and variable pay analysis and submitted result-                    intent of the recommendation was
                                                                                                                                                                                                        ing findings to the Amtrak Board for approval at the November 2010 board                       to address total compensation as a
                                                                                                                                                                                                        meeting.                                                                                       package.

                                                                                                                                                                                                     	 The development of a total compensation strategy will have significant finan-
                                                                                                                                                                                                       cial implications to the company. Thus this objective is to continue to work
                                                                                                                                                                                                       with the Amtrak Board of Directors to build a multi-year strategy detailing
                                                                                                                                                                                                       the major elements that will have to be implemented over a period of time,
                                                                                                                                                                                                       depending on funding availability.
Compensation   2B. As part of developing the total compensation philosophy      • 	Conduct benefits benchmarking study.                                           M. Duncan           12/30/2011     • 	Funding was not available in 2010 to conduct benefits benchmarking study.        No Progress   No work is currently underway on a
               and strategy, Amtrak conduct an assessment of the value                                                                                                                                  Another attempt will be made in FY2011. If funding is still not available, other               benefits benchmarking study.
               that employees place on various elements of the three total      • 	Develop formal report summarizing findings and detail recommended strate-                                            options will be pursued. Presently engaged in an RFP to select a health and
               compensation components. This assessment should include             gies.                                                                                                                welfare benefits consultant. Will engage this consultant to assist in complet-
               both current employees and potential future employees.                                                                                                                                   ing a benefits benchmarking study.
                                                                                • 	Present findings and recommendations to the Amtrak executive team for
                                                                                   review and approval.
Compensation   2C. Amtrak implement a communication plan to support             •	 Obtain Amtrak Board Approval.                                                  M. Duncan           120 Days       See 2A and 2B                                                                      Little         A communication plan is included as
               effective change management in implementing the                                                                                                                        Following                                                                                         Progress       part of the scope of work for the con-
               company’s total compensation philosophy and strategy.            • 	Collaborate with Corporate Communications to develop plan based upon                               Board                                                                                                            sultant developing the market-based
                                                                                   Amtrak Board feedback.                                                                             Approval                                                                                                         salary structure for non-agreement
                                                                                                                                                                                                                                                                                                       employees. This will be only part of the
                                                                                                                                                                                                                                                                                                       overall communication plan envisioned
                                                                                                                                                                                                                                                                                                       in the recommendation.
               2D. Amtrak include sufficient funding annually in the budget                                                                                                                                                                                                             Little         Funding has been approved to com-
               to accomplish the required investments necessary to support                                                                                                                                                                                                              Progress       plete a market-based compensation
               the total compensation philosophy and strategy. (Inserted                                                                                                                                                                                                                               study, but funding has not been ap-
               by OIG. This recommendation was omitted in the Amtrak                                                                                                                                                                                                                                   proved yet to support implementation
               action plan.)                                                                                                                                                                                                                                                                           of the entire non-agreement monetary
                                                                                                                                                                                                                                                                                                       compensation strategy.
Compensation   2E. Amtrak develop a labor contract management strategy         • 	Establish a labor advisory group comprised of Amtrak senior executives.         Designated Senior   Completed      • 	Amtrak President and CEO established Labor Advisory group comprised of key      No Progress    A compensation strategy for
               that supports the company’s total compensation philosophy                                                                                          Executives                            Amtrak executives effective 12/2009.                                                           agreement-covered employees has not
               and strategy, and is aligned with the challenges of recruiting, • 	Define Amtrak labor strategy based on environmental factors.                                                                                                                                                         been developed. Until a compensa-
               motivating, developing and retaining agreement covered                                                                                                                                • 	Amtrak changed the Labor Relations leadership in 1/2010.                                       tion strategy is developed, a contract
               employees.                                                                                                                                                                                                                                                                              negotiation strategy to support it
                                                                                                                                                                                                     • 	July 2010 Amtrak CEO and Board of Directors established the Chief Labor                        cannot be developed.
                                                                                                                                                                                                        Negotiator position.
Compensation   2F. Amtrak develop a comprehensive pay structure for non-        • 	Conduct compensation benchmarking study. (Complete)                            M. Duncan           9/30/2011      •	 Conducted benchmarking study of band/zone structure. Presented market           Some           A market-based pay structure for
               agreement covered employees that supports the company’s                                                                                                                                  based salary structure to the Amtrak Board of Directors. Recommendations        Progress       non-agreement employees is being
               total compensation philosophy and strategy for non-agree-        • 	Produce report summarizing study results and corresponding recommenda-                                               are still under consideration.                                                                 developed. Currently waiting for final
               ment covered employees.                                             tions. (In process of completing)                                                                                                                                                                                   report from consultant.
                                                                                                                                                                                                     •	 See 2A and 2C. Implementation will be contingent upon Board approval and
                                                                                • 	Present report to senior executive team for review and incorporate feedback.                                         available funding.

                                                                                • 	Obtain Board approval for final recommendations.                                                                  	 In process of completing extensive market pay analysis that will support
                                                                                                                                                                                                       the implementation of a market-based salary structure in 2011 for non-
                                                                                                                                                                                                       agreement employees. This will serve as a foundation for completing the
                                                                                                                                                                                                       compensation strategy.
                                                                                                                            Amtrak Office of Inspector General                                                                                                                                                                                       21
                                                                                                                             Report No. E-11-04, July 8, 2011
                                                                                                                Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                          DATE TO BE                                                                                              OIG                         OIG
   CATEGORY                         RECOMMENDATION                                                               ACTION PLAN                                        RESPONSIBLE PARTY                                                   ACTIONS YEAR TO DATE
                                                                                                                                                                                        ACCOMPLISHED                                                                                            STATUS                     COMMENTS
RECRUITMENT
Recruitment   3A. Amtrak look closely at its current recruitment process to    •	 Assess business process established through EIM.                                  Paula Porter        04/30/11          •	 Collaborated with the EIM3 project management team to define, blue print,        Little        HR only recently formed a team to
              eliminate redundancies and realize efficiencies, both in cost                                                                                                                                  design, configure/customize, user testing and training of EIM3 business          Progress      document and evaluate the recruit-
              and time to hire.                                                •	 Establish protocols to Identify additional efficiencies and continuous improve-                                            processes used in the 05/19/10 implementation of automated systems                             ment processes.
                                                                                  ments.                                                                                                                     (e-recruitment, e-learning, e-qualifications, business intelligence) that will
                                                                                                                                                                                                             increase efficiency. Currently reviewing implemented business processes,
                                                                               •	 Implement identified strategies to eliminate redundancies.                                                                 focusing on continuous improvement and correcting system defects. Identi-
                                                                                                                                                                                                             fied program changes will occur following SAP/SAM implementation
Recruitment   3B. Amtrak create an overall HC recruitment strategy,            •	 Conduct an analysis of internal workforce trends and environmental factors.       Paula Porter        06/30/11          •	 Worked with key stakeholders in Transportation organization units and          Little          Although effort has been expended
              involving all stakeholders, which identifies Amtrak’s critical                                                                                                                                 implemented hiring (recruiting/staffing/training) plans designed to reduce     Progress        to address departmental recruiting
              positions and the techniques to be used to fill them as          •	 Collaborate with key stakeholders and departments to establish strategic                                                   time to hire. Worked with key stakeholders in Mechanical and Engineering                       issues, there is no significant effort
              quickly as possible.                                                recruitment and retention plans.                                                                                           organization units to develop hiring (recruiting , staffing, training) plans                   underway to develop an overall HC
                                                                                                                                                                                                             designed to reduce time to hire in support of American Recovery and Rein-                      recruitment strategy.
                                                                               •	 Establish annual process to review KPI’s and make appropriate changes                                                      vestment Act initiative. Awaiting department approval on plan. As part of HR’s
                                                                                  based upon environmental changes.                                                                                          new Service Delivery Module, established HR Consultant role which partners
                                                                                                                                                                                                             with HR’s Centers of Excellence with a role to work with key stakeholders and
                                                                               •	 Integrate succession planning process with defined recruitment and retention                                               departmental clients in establishing strategic recruitment and retention
                                                                                  process.                                                                                                                   plans. Worked with key stakeholders in Office of the Inspector General, Policy
                                                                                                                                                                                                             and Development, Information Technology and Amtrak Police Department
                                                                               •	 Create and implement recruitment strategy based upon defined factors.                                                      organization units and implemented hiring plans which reduced time to hire.
Recruitment   3C. Amtrak continue to support the full implementation of        Will continue to support the full implementation of the company’s EIM Phase III      Green, Trainor      Phase III -       • 	Collaborated with the EIM3 project management team to define, blue print,        Some          EIM Phase III has been implemented.
              the company’s EIM Phase III and IV projects with regard to       and IV projects with regard to eRecruitment. Phase IV contingent upon available                          Completed            design, configure/customize, and user testing and training of EIM3 business      Progress      The scope of Phase IV with regard to
              e-Recruitment.                                                   funding.                                                                                                 Phase IV             processes used in the 05/19/10 implementation of automated systems                             eRecruitment is still to be determined
                                                                                                                                                                                        Contingent           (e-recruitment, e-learning, e-qualifications, business intelligence) that will                 based on the ongoing evaluation of the
                                                                                                                                                                                        Upon Available       increase efficiency.                                                                           recruitment process. Depending on the
                                                                                                                                                                                        Funding                                                                                                             definition of the scope of work, funding
                                                                                                                                                                                                                                                                                                            may be an issue.
              4A. Amtrak develop a corporate retention strategy that aligns    See 3B and 3C.                                                                       P. Porter           6/30/2011         See 3B and 3C.                                                                      No Progress   There has been no coordinated effort to
              with and supports the overall HC strategic plan.                                                                                                                          Support of Plan                                                                                                     develop a corporate retention strategy.
                                                                                                                                                                                        Contingent
                                                                                                                                                                                        Upon Available
                                                                                                                                                                                        Funding


Knowledge     4B. Amtrak develop a plan that addresses knowledge               •	 Create a mentoring program which engages experienced staff in knowledge           Sheila Davidson     12/1/2011         See 1A, 1B, 1C.                                                                     Little        Although there may have been isolated
Transfer      transference that must occur from the thousands of Amtrak           transference.                                                                     Elisha Lewis                                                                                                              Progress      efforts to pass knowledge between em-
              employees that will retire over the next several years.                                                                                                                                                                                                                                       ployees, there has been no comprehen-
                                                                               •	 Expose staff to expanded professional experiences through position rotations                                                                                                                                              sive effort to develop a corporate-wide
                                                                                  and diversified assignments.                                                                                                                                                                                              plan to address knowledge transfer
                                                                                                                                                                                                                                                                                                            from departing employees.
                                                                               •	 Identify single incumbents and highly specialized positions to create candi-
                                                                                  date pools through advance recruitment and focused training.

                                                                               •	 Create business practice documentation processes to ensure that information
                                                                                  and knowledge are memorialized for the future.
              4C. Amtrak develop an updated estimate of the comprehen-         • Conduct attrition analysis.                                                        Sheila Davidson     Ongoing           •	 Monthly attrition reports are generated and reviewed by the HR Workforce     Some              An updated estimate of the cost of
              sive cost of employee turnover for agreement covered and                                                                                                                                       Planning team. Currently working with Finance to obtain guidance on building Progress          employee turnover for non-agree-
              non-agreement covered positions to assist in the develop-        • Develop trend reports.                                                                                                      a data base to facilitate development of cost factors.                                         ment covered employees has been
              ment of the company’s retention strategy.                                                                                                                                                                                                                                                     developed. However, a corresponding
                                                                               • Conduct cost analysis and produce resulting report.                                                                                                                                                                        estimate for agreement covered
                                                                                                                                                                                                                                                                                                            employees has not.
                                                                                                                             Amtrak Office of Inspector General                                                                                                                                                                               22
                                                                                                                              Report No. E-11-04, July 8, 2011
                                                                                                                 Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                          DATE TO BE                                                                                             OIG                     OIG
   CATEGORY                         RECOMMENDATION                                                                ACTION PLAN                                       RESPONSIBLE PARTY                                                 ACTIONS YEAR TO DATE
                                                                                                                                                                                        ACCOMPLISHED                                                                                           STATUS                 COMMENTS
EMPLOYEE ENGAGEMENT
Employee      4D. Amtrak fully analyze the results from the recent employee     •	 Develop an Amtrak Interdepartmental Recognition Advisory Committee that          Elisha Lewis        4/1/2011         •	 Established a cross functional project team led by HR to include Marketing       Some       Significant effort has been expended
Engagement    surveys and develop comprehensive action plans to address            will be responsible with developing a company-wide Employee Recognition                                                  & Product Mgmt; Corporate Communications. This group worked to develop           Progress   in addressing employee recognition
              the issues affecting employee satisfaction and morale.               Policy and Guidelines.                                                                                                   a action plan of Employee Engagement initiatives along with a correspond-                   and engagement, but there is still no
                                                                                                                                                                                                            ing employee communications strategy that was presented to the Executive                    comprehensive action plan to address
                                                                                •	 Implement the initiative within all departments utilizing the assistance of                                              Committee for approval to include:                                                          all of the issues surfaced in the
                                                                                   dept recognition committees.                                                                                                                                                                                         referenced employee surveys.
                                                                                                                                                                                                         •	 Employee Appreciation Day – Events held around the country that promote &
                                                                                •	 Grow EAD events by incorporating the importance of Amtrak’s history at all                                               honor the support each have provided to Amtrak over the years.
                                                                                   Amtrak locations.
                                                                                                                                                                                                         •	 The Employee Recognition program - to include a company policy and guide-
                                                                                •	 Utilize current SAP functionality to partner with SilkRoad OnBoarding software                                           lines in an effort to build a culture of recognition by recognizing employees
                                                                                   to strengthen and personalize employee experiences, resulting in a more                                                  and promote recognition of employees for their achievements and contribu-
                                                                                   motivated and engaged workforce contingent upon the availability of funding                                              tions to Amtrak
                                                                                   required to complete the task.
                                                                                                                                                                                                         • 	Wellness Program – Providing employees with programs that focus on their
                                                                                •	 Develop an action plan to address issues identified through the recognition                                              physical and mental well being
                                                                                   programs, surveys, and onboarding strategies.
                                                                                                                                                                                                         • 	On-Boarding Pilot – to increase in new employee satisfaction and day one
                                                                                                                                                                                                            readiness. Pilot was launched at Beech Grove facility.

              5A. Amtrak fully support and complete the implementation of       Will continue to support the full implementation of the company’s EIM Phase III                         Phase III -      Capital funding to continue Phase IV SAP implementation is currently not            Some       EIM Phase II and III have been
              EIM Phase II through IV projects.                                 and IV projects with regard to eRecruitment. Phase IV contingent upon available                         Completed        available.                                                                          Progress   implemented. Phase IV does not have
                                                                                funding.                                                                                                Phase IV                                                                                                        approved funding. HR has not yet
                                                                                                                                                                                        Contingent                                                                                                      developed a business case argument
                                                                                                                                                                                        Upon Available                                                                                                  to support funding of the portions of
                                                                                                                                                                                        Funding                                                                                                         Phase IV that are critical.
              5B. Amtrak take full opportunity during EIM implementation        As detailed in 3A and 3B, has conducted extensive review of business processes      Paula Porter        4/30/2011        •	 Thorough review of business processes and best practices were integral com-      Some       Efforts to reengineer business
              to reengineer current business processes to make them as          and where applicable have reengineered processes to facilitate continuous           Mike Duncan                             ponents of the EIM process. Many processes were reengineered and efforts         Progress   processes continue as part of the de-
              efficient and effective as possible.                              improvement.                                                                                                                continue in the review and establishment of the HR service delivery model.                  velopment and implementation of the
                                                                                                                                                                                                                                                                                                        Service Delivery Model with assistance
                                                                                                                                                                                                                                                                                                        from Deloitte.
              6A. Amtrak combine the HR and LR departments to form              Combine departments.                                                                J. Boardman         Complete         •	 Worked with the President and CEO as well as the Board of Directors to estab-    Some       Although Amtrak initially disagreed
              one HC Department. As part of this reorganization, combine                                                                                                                                    lish AVP and Chief Negotiation office as well as a VP HR/Diversity Initiatives   Progress   with this recommendation, the HR
              and/or realign the divisions and branches within the new                                                                                                                                      and Labor Relations.                                                                        and LR departments have now been
              department to improve communication, accountability, colla-                                                                                                                                                                                                                               combined. However, our recommenda-
              boration, clarify job responsibilities, and provide a structure                                                                                                                            •	 Amtrak President and CEO established Labor Advisory group comprised of key                  tion went beyond just having the two
              to support HCM. A suggested new organizational structure is                                                                                                                                   Amtrak executives effective 12/2009.                                                        departments report to a single head.
              offered for consideration in Appendix D.                                                                                                                                                                                                                                                  A realignment of the divisions and
                                                                                                                                                                                                         •	 Amtrak changed the Labor Relations leadership in 1/2010.                                    branches within the new department
                                                                                                                                                                                                                                                                                                        was also recom-
                                                                                                                                                                                                         •	 July 2010 Amtrak CEO and Board of Directors established the Chief Labor                     mended. Some of this is currently
                                                                                                                                                                                                            Negotiator position.                                                                        being addressed as part of the service
                                                                                                                                                                                                                                                                                                        delivery model but is not complete.
              6B. Amtrak create a single chief Human Capital Officer (HCO) See 6A.                                                                                  J. Boardman         Complete         See 6A.                                                                             Some       Although Amtrak initially disagreed
              position to lead the new department and the company’s                                                                                                                                                                                                                          Progress   with this recommendation, a Chief
              strategic HC planning initiatives. This position should also                                                                                                                                                                                                                              Human Capital Officer position has
              serve as the company’s lead negotiator and spokesperson                                                                                                                                                                                                                                   now been created. However, until the
              with the labor unions.                                                                                                                                                                                                                                                                    new positon is filled, it is unknown how
                                                                                                                                                                                                                                                                                                        the CHCO will interact with the unions.
              6C. Amtrak, as part of the reorganization, conduct HR             •	 Conduct assessment of HR staff and staffing levels.                              L. Green            3/30/2011        •	 Working with Deloitte to develop and implement an HR service delivery model.     Some       Until Centers of Excellence have been
              competency assessments to identify gaps and then recruit                                                                                              P. Porter                               The first phase of this process included the establishment of the Employee       Progress   established and any reengineering
              and/or train staff to fill those gaps.                                                                                                                                                        Service Center. The second phase focuses on the establishment of Centers                    efforts are complete, competency
                                                                                                                                                                                                            of Excellence and HR Strategic Business Partners. Competencies have been                    assessments will continue to be neces-
                                                                                                                                                                                                            established and position requirements defined. Assessments will begin                       sary as part of the reorganizational
                                                                                                                                                                                                            1/2011.                                                                                     efforts.
              6D. Amtrak, as part of the reorganization, conduct an             See 6C.                                                                             L. Green            3/30/2011        See 6C.                                                                             Little     Beyond efforts in creating the
              analysis of staffing levels to include consideration such as                                                                                          P. Porter                                                                                                                Progress   Employee Service Center, little has
              HR servicing ratio, HR staff distribution by expertise and                                                                                                                                                                                                                                been done to analyze and optimize
              experience, HR staff pay structure (band/zone) placement,                                                                                                                                                                                                                                 staffing levels.
              HR supervisory ratio, and ratio of personnel actions to
              personnel staff.
                                                                                                                                 Amtrak Office of Inspector General                                                                                                                                                                               23
                                                                                                                                  Report No. E-11-04, July 8, 2011
                                                                                                                     Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                               DATE TO BE                                                                                            OIG                      OIG
    CATEGORY                              RECOMMENDATION                                                               ACTION PLAN                                       RESPONSIBLE PARTY                                                 ACTIONS YEAR TO DATE
                                                                                                                                                                                             ACCOMPLISHED                                                                                          STATUS                  COMMENTS
TRAINING & EMPLOYEE DEVELOPMENT
New Hire            1A1. That the Vice President of HR&DI schedule all new          • 	Beginning on July 1, 2010, NEO workshops will be held every 30 days in            Ramirez             Completed        Completed. Course schedule (dates and locations) have been entered into SAP        Some       A schedule for workshops is published
Orientation         employees for the New Employee Orientation Workshop,               Washington, DC; Philadelphia, PA; Chicago, IL; in the New England region;                                              e-learning Course Catalog for 1st and 2nd quarter FY2011.                          Progress   on the Amtrak Intranet and a policy
                    or equivalent, as soon as possible after their hiring date,        and Los Angeles.                                                                                                                                                                                                     was issued; however, actions do not
                    preferably on the first day on the Amtrak payroll.                                                                                                                       Completed        Completed. Policy directive issued on October 7, 2010. Directive requires                     appear to be accomplishing intent of
                                                                                    •	 Management will issue a policy directive requiring managers to schedule         Ramirez                                managers to schedule employees for orientation within the employee’s first day                recommendation. Analysis of Amtrak
                                                                                       employees for orientation within the employee’s first day of employment to four                                        of employment to four weeks from date of hire.                                                data for 327 new hires in first quarter
                                                                                       weeks from date of hire by October 1, 2010.                                                                                                                                                                          of FY 11 found that 33.6% (110) had
                                                                                                                                                                                                              Development of video presentation is temporarily on hold. Working with Cor-                   never received NEO and 7.6% (25)
                                                                                    • 	Management has initiated an effort to develop and implement alternative de- E. Lewis                                   porate Communications in developing notice/advertisment for Amtrak This Week                  received it after 30 days from hire
                                                                                       livery methods for NEO. Collaboration with Marketing to develop a top-quality                                          and Amtrak Ink, advertising policy directive and NEO requirement                              date, a total of 41.2% not meeting the
                                                                                       video presentation which includes a CEO welcome and conveys the values of                                                                                                                                            intent of the recommendation.
                                                                                       NRPC with a target date of January 30, 2011, contingent upon the availability
                                                                                       of funding required to complete the task.
New Hire            1A2. That the Vice President of HR&DI track and report on       •	 Management will generate monthly SAP reports that define all new hires            Pavlakis            Completed        Developed and implemented a monthly report of new employees by organiza-           Little     The only “report” provided was an
Orientation         a quarterly basis the number of new hires that have not            for the quarter who have not attended NEO workshop. In connection with                                                 tional group. Report is used to facilitate identification of employees who must    Progress   SAP-generated listing of all new hires
                    attended the New Hire Orientation Workshop, or equivalent,         the policy to be issued by July 1, 2010, the first reports will be forwarded to                                        attend orientation. The HR Operations group will coordinate with respective                   from October 2010 through December
                    within 30 days of hire.                                            department heads with a published schedule of upcoming NEO workshops on                                                managers to ensure new employees attend NEO. HR Operations Training and                       2010 with their NEO attendance dates
                                                                                       July 1, 2010. Department heads will be responsible for scheduling respective                                           Development Coordinator identifed and trained on management and adminis-                      included. This listing had not been
                                                                                       employee training.                                                                                                     trative responsibilites of NEO course schedule amd roster. A copy of the monthly              analyzed to determine the number
                                                                                                                                                                                                              report was provided to the OIG.                                                               of new hires that had not attended
                                                                                                                                                                                                                                                                                                            the NEO workshop within 30 days of
                                                                                                                                                                                                                                                                                                            hire. The fact that 41% of the new
                                                                                                                                                                                                                                                                                                            hires had not complied with the basic
                                                                                                                                                                                                                                                                                                            recommendation and anyone receiving
                                                                                                                                                                                                                                                                                                            this “report” would have to do their
                                                                                                                                                                                                                                                                                                            own analysis of the data to under-
                                                                                                                                                                                                                                                                                                            stand that fact, makes this report only
                                                                                                                                                                                                                                                                                                            marginally useful and does not meet
                                                                                                                                                                                                                                                                                                            the intent of the recommendation.
New Hire Training   1B. That the VP for HR&DI lead an effort to identify, with      •	 All Amtrak jobs will have updated position descriptions by June 30, 2010.        Duncan               Complete         •	 The position description project was completed on June 30, 2010 and all         Little     Only limited progress has been made
(Job Specific)      input from each Amtrak department, the initial job-specific                                                                                                                                  management jobs have position descriptions.                                     Progress   in populating the qualification profiles
                    training required for each position within Amtrak, and track    •	 Establish qualification profiles for applicable positions within the SAP system. Porter                                                                                                                              with all of the “initial job specific
                    whether new hire employees start this training within the first    Generate periodic reports to verify employee successful participation in ap-                          9/30/11          •	 A comprehensive effort is currently underway to establish/update position                  training” for all employees, both
                    30 days of employment.                                             plicable programs as defined by qualification requirements.                                           Contingent          descriptions for all Amtrak jobs and build qualification profiles within the               agreement and non-agreement; and
                                                                                                                                                                                             upon                Amtrak SAP system. The referenced qualifications catalogue will include all                there is no tracking effort underway
                                                                                                                                                                                             availability        educational and training requirements. This process will not only enhance                  to see if new employees start this
                                                                                                                                                                                             of capital          recruitment efforts, but will also serve as the basis for performance                      training within 30 days of employment.
                                                                                                                                                                                             funding             management and employee development. Qualifications for positions that
                                                                                                                                                                                             for SAP             require FRA/DOT training and/or certification are being populated in Training
                                                                                                                                                                                             enhancements        Qualifications Catalog as of EIM3 go live 5/19/10. Completion of this task is
                                                                                                                                                                                                                 contingent upon continued funding support for the SAP project. To date exten-
                                                                                                                                                                                                                 sive efforts have been put forth to attach applicable regulatory requirements
                                                                                                                                                                                                                 to respective jobs.

Subsequent          1C. That the VP for HR&DI, working with the department          See 1B.                                                                              Porter              9/30/11          See 1B. Additionally, subsequent training will be contingent upon applicable       Some       Although the new draft course cata-
Training            heads, develop specific guidance on who should attend                                                                                                                    Contigent upon   regulation and outcomes of the HPO process. A course catalog detailing regula- Progress       logue demonstrates progress toward
                    each course                                                                                                                                                              available        tory requirements is being finalized and includes information relevant to required            implementing this recommendation,
                    offered and the frequency in which it is required to meet the                                                                                                            funding          frequency as well as applicable prerequisites.                                                it is still not complete. The references
                    intended objective of the training.                                                                                                                                      for system                                                                                                     to funding and the HPO process
                                                                                                                                                                                             enhancements                                                                                                   holding this back are misleading and
                                                                                                                                                                                                                                                                                                            should not delay implementing this
                                                                                                                                                                                                                                                                                                            recommendation.
                                                                                                                                     Amtrak Office of Inspector General                                                                                                                                                                             24
                                                                                                                                      Report No. E-11-04, July 8, 2011
                                                                                                                         Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                                 DATE TO BE                                                                                          OIG                        OIG
    CATEGORY                               RECOMMENDATION                                                                ACTION PLAN                                       RESPONSIBLE PARTY                                               ACTIONS YEAR TO DATE
                                                                                                                                                                                               ACCOMPLISHED                                                                                        STATUS                    COMMENTS
Training Strategy    1D1. That the Amtrak President issue a corporate-wide             In an effort assess strategic goals and objectives the VP for HR&DI will meet       Green               Revised Date   • 	Due to the introduction of new FRA proposed regulation governing the            No Progress   As of Feb 10, 2011, none of the
                     strategy for training and employee development providing          with Executive Committee Members to discuss:                                                            06/30/2011        development and delivery of regulatory and safety training. The target date                   meetings and discussions outlined
                     guidance to the corporation on the linkage of training and                                                                                                                                  for this action has been revised. The HR team is an integral member of the                    above had taken place . This is the
                     employee development to the achievement of Amtrak’s               • options for improving the efficiency of Amtrak’s training                                                               FRA Rail Safety Administration training standards committee; and is actively                  critical path affecting 37% of all
                     strategic goals and objectives.                                   •	 minimum qualifications and certifications required to be an instructor                                                 participating in the development and implementation of training standards                     recommendations. The FRA rulemaking
                                                                                       •	 the current Amtrak Management Associate Program                                                                        that will govern training requirements. Monthly work sessions have been                       cited as a reason for the delay is
                                                                                       •	 succession planning                                                                                                    conducted with the FRA since June, 2010 to finalize training standards.                       considered unjustified and in any event
                                                                                       •	 an appropriate management assessment tool                                                                                                                                                                            would not affect the overall strategy to
                                                                                       •	 leadership training and career development for all employees                                                                                                                                                         such a degree that initial discussions
                                                                                       •	 performance management                                                                                                                                                                                               could not be accomplished. Departure
                                                                                       •	 education standards                                                                                                                                                                                                  of the VP for HR,LA,&DI will further
                                                                                                                                                                                                                                                                                                               delay progress.
                                                                                       A corporate-wide strategy for training and employee development will be presen-     Boardman            TBD
                                                                                       ted to Amtrak’s President with a goal to have the strategy issued companywide.
Training Strategy    1D2. That the VP for HR&DI, in consultation with Amtrak’s         •	 The HR Department will revise and/or develop policies based on the defined       Porter              06/30/11       See 1D1. Target date will be impacted by actions detailed in 1D1.                  No Progress   No action taken. Linked to recommen-
                     executive leadership, develop consistent, corporate-wide             strategic direction and establish, implement, and communicate the strategy                                                                                                                                           dation 1D1.
                     policies and procedures to support the strategy.                     to support compliance with policy provisions.

                                                                                       •	 A glossary of common training terms will be incorporated into the policy.

                                                                                       •	 Policies and procedures to ensure that all training is appropriately captured
                                                                                          in SAP will be incorporated into the policy.
Training Efficiency 1E. That the VP for HR&DI, in consultation with other de-          The Executive Committee will consider this recommendation in connection with        Porter              06/30/11       See 1D1.                                                                           No Progress   As of Feb 10, 2011, no action has
                    partments, explore options for improving the efficiency of its     recommendation 1D1.                                                                                                                                                                                                     been taken. Departure of the VP for
                    training, including but not limited to increased centralization                                                                                                                                                                                                                            HR,LA,&DI will further delay progress.
                    of some or all of Amtrak’s instructor led training (particularly
                    new hire training), and use of part-time contractor instructor
                    employees to provide a surge capacity, if needed.
Training Records     1F1. That the VP for HR&DI continue to fully support the          • 	The EIM initiative is scheduled to be completed by May 31, 2010. Additionally,   Green, Trainor      Complete       The EIM initiative (Phase III) was completed in May 2010.                          Complete      The ability to manage employee
                     implementation of EIM so that supervisors have the ability to        numerous training workshops are taking place in April and May 2010 to train                                                                                                                                          training appears to be up and running,
                     easily view and manage their employee training records.              supervisors.                                                                                                                                                                                                         dependent upon a supervisor’s desire
                                                                                                                                                                                                                                                                                                               and ability to use it.
Training Records     1F2. That, once EIM is sufficiently implemented, the VP for       See 1D2.                                                                            Porter              Complete       The HR Employee Development team consulted with all key stakeholders and        Little           No new policies or procedures have
                     HR&DI develop policies and procedures to ensure that all                                                                                                                                 provided guidance on requirements to capture training events in the SAP system. Progress         been developed to ensure that all
                     training is being appropriately captured in HRIS, and that                                                                                                                                                                                                                                training is being captured and
                     duplicate records are not continuing to be maintained.                                                                                                                                                                                                                                    duplicate records were not continuing
                                                                                                                                                                                                                                                                                                               to be maintained in the field.
Instructor           1G1. That the VP for HR&DI develop a policy that establishes      •	 Revise position description.                                                     Porter              Complete       •	 Employee Development position descriptions are on file and include details      No Progress   A policy has not been developed and
Certifications       the minimum qualifications and certifications required to be                                                                                                                                on required instructor qualifications. Other requirements will be driven by                   PDs are not specific enough to address
                     an instructor for each course taught at Amtrak.                                                                                                                                             impending FRA regulations.                                                                    this recommendation.
Instructor           1G2. That the VP for HR&DI develop a program to insure that •	 The Executive Committee will consider this recommendation in connection                Porter              Complete       •	 Instructor qualifications are included in the revised job descriptions for      Little        In absence of a policy responding to
Certifications       all Amtrak instructors achieve and remain in compliance with   with recommendation 1D1.                                                                                                     Employee Development instructors. Other requirements will be driven by          Progress      1G1, a program to insure compliance
                     the above policy.                                                                                                                                                                           impending FRA regulations. Position requirements are attached in the job                      cannot be developed.
                                                                                                                                                                                                                 profile maintained in SAP. The Sr. Director Employee Development will provide
                                                                                                                                                                                                                 an overview of job profiles and related SAP process for the OIG Evaluation
                                                                                                                                                                                                                 team.
Computer             1H. That the VP for HR&DI, working with the Chief Information •	 Management is currently exploring options to strengthen controls over                Pavlakis            Complete       • 	A digital sign on process w/e-signature has been implemented in collabora-      Some          Controls have been developed but
Based Training       Officer, develop procedures to ensure that individuals that      computer based training.                                                                                                   tion with the IT group to support computer based training.                      Progress      can still be circumvented. No current
Validation           are credited for taking required computer based training pro-                                                                                                                                                                                                                             efforts to further strengthen controls
                     grams are the same individuals that completed the courses. •	 Management anticipates that a detailed action plan with milestone dates to
                                                                                      implement the identified recommendations will be completed by August 30,
                                                                                      2010.

                                                                                       •	 Define what options are available to track and enhance security measures for
                                                                                          computer based training validation.
Terminology          1I. That the VP for HR&DI develop and publish a glossary                                                                                              Pavlakis            Complete       • Completed. A glossary of training terms are included on the Amtrak Intranet      Complete      This recommendation was fully
                     of common training terms and definitions to facilitate                                                                                                                                      under Employee Development.                                                                   complied with.
                     communication and common understanding throughout the
                     corporation concerning training and employee development
                     topics.
                                                                                                                               Amtrak Office of Inspector General                                                                                                                                                                              25
                                                                                                                                Report No. E-11-04, July 8, 2011
                                                                                                                   Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                           DATE TO BE                                                                                          OIG                        OIG
    CATEGORY                              RECOMMENDATION                                                             ACTION PLAN                                     RESPONSIBLE PARTY                                               ACTIONS YEAR TO DATE
                                                                                                                                                                                         ACCOMPLISHED                                                                                        STATUS                    COMMENTS
Management          2A1. That the Amtrak President, with the support and           •	 The Executive Committee will consider this recommendation in connection        Green               Ongoing        • Position descriptions have been established and enhancements are being           Some          No corporate strategy currently being
Employee Career     approval of the Board of Directors, issue a corporate-wide        with recommendation 1D1.                                                                                             made to the Performance management process. Extensive analysis is cur-          Progress      drafted, but some analysis has been
Development         strategy for                                                                                                                                                                           rently underway to define the correlations and organizational needs. Research                 done.
Strategy            developing management employees to assume the future                                                                                                                                   is also being conducted to identify legal requirements and address concerns.
                    leadership roles within the company.                                                                                                                                                   Additionally participating in HPO efforts to ensure applicable correlation.
Management          2A2. That the VP for HR&DI, in consultation with Amtrak’s      •	 The Executive Committee will consider this recommendation in connection        Green               Ongoing        See 2A1.                                                                           No Progress   Until strategy is developed this cannot
Employee Career     executive leadership, develop consistent, corporate-wide          with recommendation 1D1.                                                                                                                                                                                           be started.
Development         policies and procedures to support the management career
Strategy            development strategy.
Management          2B. That the VP for HR&DI develop and implement an             •	 Assess legal implications and explore available options. Implementation is     Porter              01/30/11       • 	Currently assessing available instruments that are consistent with competen- Little           Some research has been done, but
Candidate           appropriate management assessment tool for all applicants         contingent upon available funding.                                                                                   cies defined. Finalizing the report with applicable recommendations.         Progress         no record exists of a report or any
Aptitude            for non-agreement employee positions.                                                                                                                                                                                                                                                recommendations.
Screening
Management          2C1. That the VP for HR&DI review and revise the current       •	 Conduct assessment of current program.                                         Elisha Lewis        Revised Date   • 	Reviewing program curriculum and job rotation process. Solicited feedback       Little        Responsible party on MLOA since last
Associate /         Amtrak Management Associate Program to fill an appropriate     •	 Perform benchmarking analysis.                                                                     3/30/2011         from key stakeholders including current MAPs. Defined development structure     Progress      fall. No evidence of assessment or
Trainee             and effective role within the new management career            • 	Define program improvements.                                                                                         that will be used base on feedback provided.                                                  benchmarking results.
Program             development strategy.
Management          2C2. That the CFO identify funding within Amtrak’s corporate   • 	Once a strategy has been developed and approved, an assessment of funding      Green               2011           TBD                                                                                No Progress   No action can be taken until the
Associate /         budget to meet the needs of the revised Management                needed to implement such strategy will be completed. Management antici-                                                                                                                                            revisions to Management Associate
Trainee             Associate Program.                                                pates a corporate-wide strategy will be issued and communicated by January                                                                                                                                         Program identified.
Program                                                                               2011. Funding assessment will begin in 2011.
Career              2D1. That the VP for HR&DI, in consultation with Amtrak’s      • 	The HR Department in conjunction with other Amtrak departments will explore    Duncan              11/30/2010     • 	Collaborated with the IT and Engineering groups to develop career families.     Little        Engineering and IT efforts were in
Progression & Job   executive leadership, develop broad company-wide job              the viability of this approach for Amtrak and make recommendations to the                          (multi-year       Ongoing collaboration with other organizational groups. Implemented career      Progress      progress before T&ED evaluation
Families            families and career progression paths for all non-agreement       Executive Committee by September 1, 2010.                                                          strategy)         path pilot plan for IT in Sept 2010. In process of implemmenting career                       completed in October 2009. Current
                    positions.                                                                                                                                                                             path plan for Engineering. A career path planning/implementation approach                     direction does NOT provide for com-
                                                                                                                                                                                                           will be presented to the Executive Committee in February 2011. The rate of                    pany-wide families as stated in basic
                                                                                                                                                                                                           implementation will depend on funding and resource availability.                              recommendation and will exacerbate
                                                                                                                                                                                                                                                                                                         “silo” problem.
Career              2D2. That Amtrak’s President designate either the VP for       •	 The Executive Committee will consider this recommendation in connection        Green               TBD*                                                                                              No Progress   No action to date. Departure of the
Progression & Job   HR&DI or other Amtrak senior leaders to oversee and manage        with recommendation 1D1.                                                                                                                                                                                           VP for HR,LA &DI will further delay
Families            these families and career paths.                                                                                                                                                                                                                                                     progress.
Educational         2E1. That the VP for HR&DI, in conjunction with the heads      •	 The Executive Committee will consider this recommendation in connection        Green               TBD*                                                                                              No Progress   No action to date. Departure of the
Standards for       of each department, ensure that appropriate educational           with recommendation 1D1.                                                                                                                                                                                           VP for HR,LA &DI will further delay
Non-Agreement       standards are identified for all non-agreement employees.                                                                                                                                                                                                                            progress.
Employees

Educational         2E2. That the VP for HR&DI ensure that all new non-agree-      •	 This recommendation continues to be an integral component of Amtrak’s          Porter, Duncan      Ongoing        •	 Continue standard operating practice. Continue to collaborate with execu-       Little        Amtrak still posts jobs that contain
Standards for       ment hires or promotions possess the minimum educational          standard operating practice as it relates to recruitment and placement.                                              tives and hiring managers in defining educational requirements related to       Progress      educational requirements and then
Non-Agreement       standard identified in the position description or that a                                                                                                                              positions. As positions are posted and filled educational requirements are                    adds the Amtrak standard suffix “or
Employees           waiver has been granted by the President of Amtrak, or his                                                                                                                             detailed.                                                                                     the equivalent combination of edu-
                    designated representative.                                                                                                                                                                                                                                                           cation, training, and/or experience,”
                                                                                                                                                                                                                                                                                                         which essentially renders the educa-
                                                                                                                                                                                                                                                                                                         tional requirement moot. Consequently,
                                                                                                                                                                                                                                                                                                         as long as hiring managers can
                                                                                                                                                                                                                                                                                                         judge experience as equivalent to a
                                                                                                                                                                                                                                                                                                         degree, anyone can meet the minimum
                                                                                                                                                                                                                                                                                                         educational requirements, and there is
                                                                                                                                                                                                                                                                                                         no need to have a process to request a
                                                                                                                                                                                                                                                                                                         waiver from the president of Amtrak.
                                                                                                                                                                                                                                                                                                         This was clearly not the intent of the
                                                                                                                                                                                                                                                                                                         recommendation.
Educational         2E3. That the VP for HR&DI track and semiannually report       See 2E2.                                                                          Porter,             Ongoing        •	 Revised position descriptions have been developed for all nonagreement posi-    No Progress   Actions to date do not address the
Standards for       progress toward achieving the educational standards                                                                                              Duncan                                tions. Current efforts also include building Qualifications Catalogue within                  recommendation. AVP, HR confirmed no
Non-Agreement       identified in the position descriptions.                                                                                                                                               SAP. Continued efforts will depend on available funding                                       tracking and reporting accomplished
Employees                                                                                                                                                                                                                                                                                                or planned.
Cross-              2F1. That the VP for HR&DI develop and implement a plan to     •	 Management will establish a cross-functional team to explore feasibility       Porter              12/30/11       •	 Action will be contingent upon executive committee approvals detailed in 1D1. No Progress     CFT was never established, action
Departmental        expand cross-departmental experience within the middle and        of establishing a cross functional program. Based on the outcome of this                                                                                                                                           waiting on “executive approvals
& Corporate         senior management of the company.                                 workgroup, a detailed action plan with milestone dates will be completed and                                                                                                                                       detailed in 1D1”.
Competencies                                                                          submitted for executive group approval.
                                                                                                                          Amtrak Office of Inspector General                                                                                                                                                                     26
                                                                                                                           Report No. E-11-04, July 8, 2011
                                                                                                              Appendix II: AMTRAK’S HUMAN CAPITAL ACTION PLAN

                                                                                                                                                                                  DATE TO BE                                                                                      OIG                        OIG
   CATEGORY                         RECOMMENDATION                                                              ACTION PLAN                                 RESPONSIBLE PARTY                                              ACTIONS YEAR TO DATE
                                                                                                                                                                                ACCOMPLISHED                                                                                    STATUS                    COMMENTS
Cross-         2F2. That the VP for HR&DI track and report progress towards    See 2F1.                                                                     Porter              12/30/11       •	 Development of program pilot is underway.                                   No Progress   Linked to 2F1, which is linked to 1D1.
Departmental   achieving this cross-departmental experience on a semian-                                                                                                                                                                                                                    AVP, HR confirmed no tracking and
& Corporate    nual basis, as a minimum.                                                                                                                                                                                                                                                    reporting accomplished.
Competencies
Cross-         2F3. That, in conjunction with the above, the VP for HR&DI      See 2F1.                                                                     Porter              12/31/11       •	 The President and CEO convened an HPO (high performing organization) group No Progress    Linked to 2F1, which is linked to 1D1.
Departmental   develop and implement procedures to preclude advancement                                                                                                                           comprised of key leadership to review and take action on new initiatives.                 AVP, HR confirmed that HPO group has
& Corporate    into upper middle management without career broadening,                                                                                                                                                                                                                      not reviewed any initatives related
Competencies   cross-departmental assignments.                                                                                                                                                                                                                                              to this.
Leadership /   2G. That the VP for HR&DI, in consultation with Amtrak’s exe-   •	 The Executive Committee will consider this recommendation in connection   Green               12/31/11       •	 Amtrak Leadership Institute has been established. Enhancements to the       Little        Linked to 1D1 and development of
Management     cutive leadership, develop and implement a policy containing       with recommendation 1D1.                                                                                        leadership program and corresponding enhancements to policy and procedure   Progress      corporate-wide strategy. Departure of
Development    corporate-wide direction and guidance on leadership training                                                                                                                       will be made based upon the feedback from the HPO senior leadership team.                 the VP for HR,LA,&DI will further delay
               and development for non-agreement employees.                                                                                                                                                                                                                                 progress.
                                                                                27
                            Amtrak Office of Inspector General
                              Human Capital Management:
          Lack of Priority Has Slowed OIG-Recommended Actions to Improve
       Human Capital Management, Training, and Employee Development Practices
                             Report No. E-11-04, July 8, 2011

                                       Appendix III
                                     ABBREVIATIONS


CEO          chief executive officer

DI           diversity initiatives

EIM          Employee Information Management

FRA          Federal Railroad Administration

GAO          Government Accountability Office

HC           human capital

HCAP         Human Capital Action Plan

HCM          human capital management

HPO          high performance organization

HR           human resources

HRIS         Human Resource Information System

IT           information technology

LA           labor administration

LR           labor relations

NEO          new employee orientation

OIG          Office of Inspector General

SAP          Systems, Applications, and Products

VP           vice president
                                                                                   28
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

                                  Appendix IV

                            OIG TEAM MEMBERS


Calvin Evans             Assistant Inspector General for Inspections and Evaluations

Mark Meana               Chief, Inspections and Evaluations

Ed Vogel, Jr.            Chief, Inspections and Evaluations

John (Skip) MacMichael   Director, Inspections and Evaluations

Catherine Smith          Chief, Human Capital Management
                                                                                         29
                           Amtrak Office of Inspector General
                             Human Capital Management:
         Lack of Priority Has Slowed OIG-Recommended Actions to Improve
      Human Capital Management, Training, and Employee Development Practices
                            Report No. E-11-04, July 8, 2011

            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to

                                conduct and supervise independent and objective
                                 audits, inspections, evaluations, and investigations
                                 relating to Amtrak programs and operations;

                                promote economy, effectiveness, and efficiency within
                                 Amtrak;

                                prevent and detect fraud, waste, and abuse in Amtrak's
                                 programs and operations;

                                review security and safety policies and programs; and

                                review and make recommendations regarding existing
                                 and proposed legislation and regulations relating to
                                 Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469
Congressional Affairs &      E. Bret Coulson
Public Relations             Congressional Affairs & Public Relations
                             Mail:    Amtrak OIG
                                      10 G Street, N.E., 3W-300
                                      Washington, D.C. 20002
                             Phone: 202.906.4134
                             Email: bret.coulson@amtrakoig.gov
